No. 19-685
IN THE

Supreme Court of the United States
EDWARD GEORGE MCGREGOR,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.
On Petition for a Writ of Certiorari
To the Texas Court of Criminal Appeals
RESPONDENT’S WORD COUNT CERTIFICATION
As required by Supreme Court Rule 33.1(h), I certify that the document
contains 5,343 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d). I am a member of the Bar of this Court.

s/ Joseph P. Corcoran
JOSEPH P. CORCORAN
Assistant Attorney General
Supervising Attorney for
Non-Capital Appeals
Counsel of Record
P.O. Box 12548, Capitol Station
Austin, Texas 78711
(512) 936-1400
Joseph.corcoran@oag.texas.gov
Counsel for Respondent

